In the Supreme Court of the United States
Certificate of Compliance
No. __________
Jeffrey Olson,
Petitioner
v.
Minnesota Commissioner of Revenue,
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 689 words, excluding the parts of the petition
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 7, 2021.

/s/ Eric Johnson
Eric Johnson
Johnson Tax Law P.C.
101 E Fifth Street, Suite 910
St. Paul, Minnesota 55101
651-224-6638
eric.johnson@johnsontaxlaw.com
Counsel of Record for
Petitioner Jeffrey Olson

